Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




LESSONS FROM INSPECTIONS OF

   MAMMOGRAPHY FACILITIES





                   JUNE GIBBS BROWN
                    Inspector General

                        MAY MM
                      OEI-05-92-00300
                      OFFICE OF INSPECTOR                GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Setices’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Sefices, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                         OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                         OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION                  AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This inspection was performed under the direction of William Moran, Regional Inspector
General of Region V, Office of Evaluation and Inspections, and Natalie Coen, Deputy
Regional Inspector General. Participating in the project were:

CHICAGO                                                     HEADQUARTERS

Thomas Komaniecki, Project Leader                           Penny Thompson
Jean DuFresne                                               Mary Beth Clarke
                                                            Linda Moscoe

To obtain a copy of this report, call the Chicago Regional Office at (312) 353-4124
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




LESSONS FROM INSPECTIONS OF

   MAMMOGRAPHY FACILITIES





                     smJlc4
                 @            “w
             $
                                   JUNE   GIBBS BROWN
         j                         Inspector   General
                          c
         ‘%                                 MAY 1994
           %?tia
            4
                                          OEI-05-92-00300
                 EXECUTIVE                       SUMMARY


PURPOSE

This report examines the on-site inspection process of Medicare screening
mammography facilities. The report also discusses lessons learned from Medicare that
the Food and Drug Administration (FDA) should consider in the implementation of
the Mammography Quality Standards Act (MQSA) of 1992.

BACKGROUND

There are approximately 11,000 mammography facilities in the United States today.
Currently, these facilities operate under a patchwork of Federal, State, and voluntary
programs that monitor the safety and quality of mammography setices they provide.

Federal regulation of mammography is mainly the responsibility of FDA and the
Health Care Financing Administration (HCFA). In the past, FDA provided limited
oversight of mammography by ensuring the proper manufacture and installation of all
mammography equipment. The HCFA regulates screening mammography by
requiring facilities meet quality standards in the areas of equipment, personnel
qualifications, and documentation. There are approximately 6,800 Medicare-certified
screening mammography facilities. In August 1992, HCFA began conducting on-site
inspections of mammography facilities through the States’ survey and certification
agencies.

In October 1992, Congress passed the Mammqpphy         Quality standards Act (MQSA)”
Whereas Medicare’s regulations only cover those facilities receiving Medicare
reimbursement and only for screening mammography, MQSA mandates that all
facilities providing mammography services, whether screening or diagnostic, meet
minimum quality standards, or run the risk of fines and sanctions including the closure
of the facility.

The FDA       is responsible for developing the regulations and implementing the new
legislation   which will prohibit any mammography facility without a certificate from
operating     as of October 1, 1994. By October 1, 1994, HCFA plans to amend the
Medicare      screening mammography regulations to cross-reference FDA’s MQSA
standards.

METHODOLOGY

We gathered data from the people responsible for the inspection of mammography
facilities. We obtained data about: 1) the number of Medicare-certified facilities; 2)
the length of time and cost of doing on-site inspections; 3) the training the inspectors
received; and, 4) the results of the inspections. We spoke with personnel from 87
inspected facilities and analyzed data from HCFA’S Online Sumey and Certification
and Reporting system entered through August 31, 1993.

FINDINGS

States began routine on-site inspection of mammography facilities in September lW,
by August 1993, States inspected about 44 percent of the certified facilities.

The HCFA requires that 100 percent of facilities be inspected annually. Some States
have completed 100 percent of their inspections while other have completed few
inspections.

Eighty-six percent of the inspected facilities failed at least one requirement. Less than
5 percent of the deficiencies were considered serious. Most facilities corrected their
deficiencies.

Fifteen facilities have been terminated from the Medicare program, while 228 have
voluntarily dropped out. Three areas make up 79 percent of facility failures: duties of
the physician consultant, aspects of quality assurance, and the written report sent to
the patient and referring physician.

State inspectors say that facilities’ unkniliarity with Medicare’s regulations is the
biggest problem encountered during inspections.

Respondents from 34 States said that the facilities inspected so far were unfamiliar
with Medicare’s regulations. Thirty-nine of 87 facility respondents said they received
no information about the inspection before it occurred.

The HCFA’S experience with the Medicare program provides valuable lessons for
FDA as they implement the Mammography Quality Standards Act. These lessons
relate to:

  .    The   FDA’s plans to implement MQSA by October 1, 1994.
  �    The   development and dissemination of the regulations for MQSA.
  �    The   capacity to inspect all mammography facilities on an annual basis.
  �    The   development of a management information system.

RECOMMENDATIONS

In light of our findings, we make recommendations both to HCFA and FDA regarding
implementation of the Mammography Quality Standards Act. We believe that FDA
has made significant progress towards the successful implementation of MQS~
including a public conference with the mammography community to discuss the
implementation of MQSA. The FDA published interim final regulations for the
quality standards and the accrediting bodies in December 1993. In addition to these



                                             ii
efforts, we believe that in the interim period before implementation, both HCFA and
FDA need to coordinate their work to ease the transition for mammography facilities.

To ensure the smooth implementation of MQS~ HCFA and FDA should:

  ��    reach agreement on the role of HCFA’S screening mammography certification
        program in the interim period before full implementation of MQSA.

              The HCFA inspections could be used to educate Medicare certified
              mammography facilities on the new requirements of MQSA. It would
              also allow inspectors to increase their familiarity with the MQSA
              requirements.

To effectively target current areas of concern while implementing MQS~       FDA
should.

  ��    ensure that facility personnel are aware of and thoroughly trained on MQSAS
        requirements;

              While FDA has begun educating the mammography industry on
              MQSA’S requirements, further efforts might be made to ensure
              that personnel involved in the day to day operation of the
              mammography units are trained on the requirements. For
              example if funds were available, FDA could provide training
              funds to States to educate the provider community on the new
              regulations, or work with private entities like the ACR, medical
              societies, and professional organizations to educate their
              members.

   ��   examine ways to perform the most effective and cost-efficient inspections which
        still adequately enforce the regulations (given that the law requires an annual
        on-site inspection of all mammography facilities);

               Potentially, inspections could be prioritized or targeted to ensure that
               the facilities with little prior regulation, or a history of problems, are
               inspected first. Another possibility includes designing streamlined
               inspections for facilities with a proven compliance record. The FDA
               should use current inspector’s experiences in conducting HCFA’S on-site
               inspections to develop FDA’s inspection protocols.

   ��   develop a management information system that allows for continuous
        monitoring of State inspections agency performance and facility compliance and
        distinguishes between documentation non-compliance and performance non-
        compliance.




                                             ...
                                            111
            We understand that FDA has begun developing a management
            information system for MQSA. We believe the system developed must
            be able to distinguish between documentation non-compliance and
            performance non-compliance.

AGENCY COMMENTS

We received comments on our draft report from FDA and HCFA. Both FDA and
HCFA concur or concur in principle with the recommendations presented in our
report. Many of the recommendations are already being implemented by FDA as part
of their implementation of MQSA. Each set of comments are presented in Appendix
c.

We have made a number of changes to the report based on the agencies’ comments.
We also have provided additional information which FDA requested.




                                        iv
                         TABLE                    OF CONTENTS


                                                                                                                          PAGE

EXECUTIVE            suMMARY

mODU~ON                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. ’......1

FINDINGS.          .................. .............................                                                 ..6
    .	 Statesbeganroutine on-sitehspectionofmarnm         FPw
       tkilities in September 1-  by August 1993 Statesinspected
       about 44 percentofthecetid      facilities. . . . . . . . . . . . . . . . . . . . . . . . . .                         6

    .Eighty-sixpercent oftheinspected facilitiexfaikd
       atkastonerequirement      Lessthan5perc4mt of the
       deficiencies were ccmsidered~riom.   Mostfacilitks
       comecttheir deficiency=. . . . . . . . . . . . . . . . . . . . . . .....~......”.7”””.7

    .Stateinqectors Saidthatfacilitid mfamikity
       with Medicare’s regulationswas the biggest problem
       encountered duringinspedions.   . . . . . . . . . . . . . . . . . . . . . . . . . . ..”” . ..”10

    .The HCFA’S experience in implementing the Medicare
      prqpm pfida valuablelessonsfor FDA as it
      attempts to effectively implement the M-OPPh
      Quditystandards     ACL. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..ll

WCO=~A~ONS                            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..”.    .””””~b

APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...”.””””””””””””””’””

A      List of States and how they perform inspections of
        screening mammography fatihties . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. A-1

B: Number of facilities out of compliance with one or
    more conditions or standards under the
    Screening Mammography re/@ations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1

c      Agency Comments             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. O. . . .. C”l. C-l
                         INTRODUCTION


PURPOSE

This report examines the on-site inspection process of Medicare screening
mammography facilities. The report also discusies lessons learned from Medicare that
the Food and Drug Administration (FDA) should consider in the implementation of
the Mammography Quality Standards Act (MQSA) of 1992.

BACKGROUND

There are approximately 11,000 mammography facilities in the United States today.
Currently, these facilities operate under a patchwork of Federal, State, and voluntary
programs which monitor the safety and quality of mammography services.

State Standanh and Vohntary Accreditation

Most States monitor the radiation safety of all X-ray imaging equipment including
mammography units. Additionally, at least 10 States” have their own quality
assurance standards for mammography. Although these standards are not identical,
most set minimum quality standards in areas of radiation exposure, equipment
specifications, quality control programs and personnel qualifications.

Since 1987, the American College of Radiology (ACR) has operated a voluntary
accreditation program for screening and diagnostic mammography providers. As of
April 4, 1994, ACR had accredited 6,184 facilities and had pending accreditation for
2,572 facilities. The accreditation process takes about 6 months to complete and
occurs entirely by mail. The ACR has begun an on-site inspection audit of a sample
of their accredited facilities.

Fed&al Rob? m iUammowPbJ

Various Federal agencies are involved in mammography issues. The National

Institutes of Health perform and fund research on breast cancer as well as access to

mammography semices. The Centers for Disease Control and Prevention (CDC)

provides grants to States for breast and cervical cancer screenings for low-income

women. Facilities approved for CDC grant money must have Medicare certification as

well as ACR accreditation. In addition, CDC has provided training for inspectors of




    “Georgia, Indiana, Iowa, Kentucky, Maryland, Massachusetts, Michigan, North
Carolina, Utah, and Vermont - as reported in the Committee on Labor and Human
Resources Senate Report 102-448 on the Mammography Quality Standards Act of
1992.


                                            1
mammography facilities. The Agency for Health Care Policy and Research is
currently developing clinical guidelines for the provision of mammography.

Federal regulation of mammography is mainly the responsibility of FDA and the
Health Care Financing Administration (HCFA). In the past, FDA provided limited
oversight of mammography by ensuring the proper manufacture and installation of all
new mammography equipment. The FDA did not routinely monitor the subsequent
use of the equipment although FDA has obtained information from the Conference of
Radiation Control Program Directors (CRCPD) concerning mammography use.
Individual States, using CRCPD’S Nationwide Evaluation of X-ray Trends survey
protocols have measured patient radiation exposures and assessed phantom image
quality.

The HCFA regulates facilities performing screening mammographies for Medicare
patients. Screening mammography facilities must meet minimum quality standards to
receive Medicare reimbursement.     These minimum quality standards do not, however,
apply to facilities performing diagnostic mammography.

The HCFA published interim final regulations on December 30, 1990, about 10 weeks
after the passage of the legislation. The HCFA has not yet published final regulations
for screening mammography for several reasons including Departmental concerns over
Medicare’s regulation concerning xerography equipment, and the enactment of
MQSA.

According to the Medicare quality standards, facilities must use personnel who meet
criteria on education, experience and certification. Mammography equipment must be
dedicated (specifically designed for mammography), and meet other technical
specifications. Film processing equipment must also meet certain standards, and be
monitored daily. Facilities must also carry out an internal quality assurance program,
which includes periodic testing of equipment, annual review by a qualified medical
physicist, continuing education for personnel, and record keeping. Facilities must
document that they meet all the requirements.

To receive reimbursement for screening mammograms after January 1, 1991, facilities
had to meet Medicare’s quality standards. To expedite the process of certi&ing
facilities, HCFA allowed facilities to attest in writing that they met Medicare’s
standards. From January 1991 to September 1992, about 6,500 facilities attested that
they met Medicare’s quality standards. On-site inspections were only done in cases
where a complaint was filed against a facility.

In August 1992, HCFA eliminated the attestation process and began conducting on-
site inspections of mammography facilities through the States’ sumey and certification
agencies. Because of the technical component of these inspections, HCFA
encouraged the agencies to contract (or develop memorandums of agreement) with
the radiation control units in their States to do all or some of the inspections.



                                           2

In July and October 1992, HCFA provided a 1 week training course for the States on
the inspection process. The FDA provided training on the technical aspects of testing
mammography x-ray equipment. The HCFA trained attendees on the review of
credentials and documentation. Training was also provided in May 1993 in
cooperation with the Conference of Radiation Control Program Directors (CRCPD.)

lhe Mammography Qua&yStati            Act of 1992

In October 1992, Congress passed the Mammography Quality Standards Act.
Congress felt that the current patch work of Federal, State, and voluntary programs
did not ensure quality mammography to all women. Whereas Medicare’s regulations
only cover those facilities receiving Medicare reimbursement, and only for screening
mammography, and whereas the ACR program only covers facilities that voluntarily
apply for accreditation, MQSA mandates that all facilities providing mammography
services, screening or diagnostic, meet minimum quality standards, or run the risk of
fines and sanctions including the closure of the facility. The legislation also requires
that all facilities be inspected by qualified inspectors.

The Senate Committee on Labor and Human Resources Report strongly suggested
that responsibility for the new legislation be given to the Public Health Service. The
FDA is responsible for developing the regulations and implementing the new
legislation which will prohibit any mammography facility without a certificate from
operating as of October 1, 1994.

By October 1, 1994, HCFA plans to amend the Medicare screening mammography
regulations to cross-reference FDA’s MQSA standards. Therefore, facilities that meet
the mandatory MQSA standards will automatically be qualified to participate in the
Medicare screening mammography program.

METHODOLOGY

lbinspection

In designing this study, we spoke with staff from HCF~ FDA CDC, the General
Accounting Office, the National Cancer Institute and the Assistant Secretary for
Planning and Evaluation. In addition, we spoke with representatives from ACR, the
CRCPD, the National Electronic Manufacturing Association, the American Cancer
Society, the American Hospital Association, the Joint Commission for Accreditation of
Health Organizations, a mammography machine manufacturer and a screening
mammography provider. We attended mammography sessions at the Radiological
Society of North America’s national convention. We visited the State of Maryland and
contacted the State of Illinois to discuss their Medicare inspection process. We
reviewed literature about reimbursement, quality, and access for screening and
diagnostic mammography. We also reviewed legislation involving the Medicare
screening benefit and MQSA.



                                            3

    Data Cbflection

    We gathered preliminary information from the 50 States, the Commonwealth of
    Puerto Rico and the District of Columbia (all referred to as States) about their
    Medicare mammography inspections. After that initial contact, we formally
    interviewed personnel responsible for the inspection of mammography facilities in 48
    States -45 by telephone and 3 on-site. We did not formally intewiew suwey and
    certification agencies in four States because they had not yet done any inspections.

    From the personnel responsible for the inspections, we obtained demographic
    information about the number of certified facilities, the length of time and cost of
    doing the inspections, information about the training the inspectors received, results of
    the inspections, the inspectors’ impressions of the inspected facilities, and suggestions
    on areas of improvement.

    We also requested complete data on the mammography facilities inspected including
    whether the facility originally attested to the Medicare reqwrements, name of a
    contact person and any conditions out of compliance. Not all the information received
    was complete. One State chose not to return this information.

    We also contacted the radiation control agencies in the States and interviewed
    representatives in these agencies about their involvement with Medicare inspections,
    other mammography related inspections in the State, and the implementation of
    MQSA One State did not have a radiation control agency.

    We intetiewed personnel in two inspected mammography facilities in each State
    where inspections were ongoing. In a few States, only one inspection had occurred
    and we contacted that one facility. We contacted a total of 87 facilities in 47 States.
    Fiftyone percent of these facilities were ACR accredited, 32 percent were in the ACR
    accreditation process and 7 percent were planning to apply for ACR accreditation.
    Ten percent of the facilities were not planning to apply for ACR accreditation. We
    spoke mainly with technicians and mammography y administrative personnel - those
    staff who had the most contact with the sumeyors at the time of the inspection.
*
    We visited Georgia, Louisiana and Michigan. Where applicable, we intemiewed staff
    at the State survey and certification agencies and at the radiation control agencies.
    We accompanied an inspector on an inspect Ion of a mammography facility in each
    State. We conducted interviews at two inspected facilities in each State.

    We also obtained screening mammography inspection data from HCFA’S Online
    Survey and Certification and Reporting (OSCAR) system entered through August 31,
    1993. This system allows for online data entry by State agencies and HCFA regional
    offices. The States are allowed up to 60 days after the inspection to input data in
    OSCAR. To check the OSCAR reliability, we randomly compared data collected
    directly from the States to OSCAR data. Our testsof the data revealed minor
    inconsistencies, omissions or other errors. However, when these data are viewed in


                                                4
context with other available evidence, we believe the findings and recommendations   in
this report are valid.

SCOPE

This report discusses issues of the on-site inspection of mammography facilities under
HCFA’S Medicare screening quality standards. In addition, this report discusses issues
that FDA must address to implement MQSA.

This report does not discuss what constitutes a quality mammogram,   nor the
appropriate cost of a mammogram.

This study was conducted in accordance with the QualityStandardsfor Inspections
issued by the President’s Council on Integrity and Efficiency in March 1993.




                                           5

                                 FINDINGS                                                —

States began routine on-site inspection of mammography facilities in September 1~,
by August 1993, States inspected about 44 percent of the certified facilities.

Before September 1992, States only inspected facilities for HCFA in the case of a

complaint. The HCFA now requires that inspections be performed annually at all

facilities. By August 1993, States inspected about 44 percent (3,000/6,791) of

Medicare certified mammography facilities. States conducted inspections ranging from

a low of 2 percent to a high of 100 percent of their facilities. The reasons for this

wide range vary. Some States were already conducting comprehensive reviews of

mammography so enacting the Medicare surveys took little extra effort. Other States

had never conducted extensive mammography reviews, had other surveys to conduct

that competed with the mammography inspections, and/or experienced difficulty

contracting with technical staff to conduct parts of the inspection.


In an August 1992 guidance to States, HCFA encouraged State survey and

certification agencies to seek help from the radiation control agencies to conduct the

inspections. Thirty-three States conduct inspections using a combination of staff from

survey and certification and radiation control agencies. The sumey and certification

agency conducts the non-technical (documentation review) while the radiation control

agency conducts the technical portion (machine review). The inspection is either

completed as a joint review or as two separate reviews. For the remainder of the

States, either the entire inspection process has been contracted to the radiation control

agency or the survey and certification agency has hired or contracted with a

radiological physicist. (See Appendix A.)


Most States choose facilities to inspect based on their geographic location. For

example, they will inspect all the facilities within a given area, such as a county, or the

northern region of their State. Originally per HCFA’S instructions, inspections were

unamounced.    However, HCFA revised its policy, allowing up to 2 days notice

because of complaints that unannounced inspections disrupted patient schedules.

Some States will only amounce the technical portion of the inspection and still

conduct the non-technical portion unannounced.


During the technical portion of the inspection, the inspector measures radiation

dosage, takes phantom images, and may perform other tests for the State that make

the machine unavailable for patient use for at least 1 hour and up to 4 hours. In

addition, the inspector reviews the quality control logs and manuals for the imaging

equipment and the film processor. The inspector also reviews the policy and

procedure manuals, staff credentials, and all other pertinent documents. A facility’s

mammography technician generally accompanies the inspector during these reviews.

According to our facility respondents, there is a great deal of interaction between the

technician and the inspector during the on-site inspection, which averages 7 hours.




                                             6

The average for an overall inspection, which includes follow-up visits and paperwork,
is 25 hours. The cost of an inspection averaged $950 with a range of $200 to $2,800.

Few facility respondents expressed problems with the actual inspection. Furthermore,
61 facility respondents said the inspection helped their facility do some things better,
such as preparing a policy and procedures manual. However, some complained that
inspections interrupted patient care. In a few cases, unannounced visits were chaotic
because the lead mammography technician was not in the facility that day.

Eighty-six percent of the inspected facilities failed at least one requirement Less than
5 percent of the deficiencies were considered serious. Most facilities corrected their
deficiencies.

Eighty-six percent of the inspected facilities failed to meet one or more of HCFA’S
requirements, with an average of 13 deficiencies per facility.”* Less than 5 percent of
all deficiencies found in the facilities are for conditional level (considered serious)
deficiencies. The great majority of facilities correct their deficiencies and continue to
supply screening mammography to Medicare beneficiaries.

According to recent HCFA information, 15 facilities have been terminated from the
Medicare screening program, while 228 facilities have voluntarily dropped out because
they could not correct their deficiencies or for other reasons. These facilities are still
eligible to receive Medicare reimbursement for diagnostic mammography.         Although
as of October 1, 1994, all mammography facilities will be subject to quality standards
regardless of reimbursement.

Few facilities are failing to meet HCFA’S mammography requirements for safety and
equipment specifications. Only two State respondents said that the common use of
non-dedicated or unsafe imaging equipment was a problem. Overall, 20 percent of
facilities failed to meet equipment standards, (most for not adhering to manufacturer’s
specified developer temperature) and 10 percent failed safety standards. This
accounted for just under 1.5 percent of all conditional level deficiencies.

According to HCFA’S OSCAR data, three areas in particular accounted for 79 percent
of facility deficiencies. These were duties of a physician consultant, the written report
sent to the patient and referring physician, and aspects of quality assurance. Each are
explained below. (See Appendix B for a list of regulations and number of facilities out
of compliance with a condition or standard.)




    ““	 We based our analysis of deficiencies on information contained in OSCAR.        As
        of August 31, 1993, 1,394 facilities had at least one deficiency out of 1,615
        facilities input into OSCAR. States are allowed up to 60 days after the
        inspection to input data into OSCAR.


                                             7
Duties of the Physician Consultant

Sixty-three percent of inspected facilities in some way failed the physician consultant
requirement. The HCFA requires that a screening mammography facility employ or
contract with a physician consultant to oversee the entire mammography process. Six
States reported that many facilities in their States were unaware of the physician
consultant’s responsibilities.

Among various duties, HCFA requires that the physician consultant observe the
technicians’ technique and positioning of a patient on a monthly basis. At 53 percent
(859 facilities), this is the requirement most often failed. Thirty percent of our facility
respondents told us they failed the physician consultant requirement because the
physician consultant did not obsexve a technician on a monthly basis to evaluate their
positioning and technique. In some cases, facilities reported that a physician
consultant was observing the technician on a monthly basis but it was not documented
in the procedures manual.

Some State and facility respondents thought there was little value added to the quality
of a screening mammogram by having the physician consultant obseme the technician.
Some of these respondents said that the physician consultant was not sufficiently
trained to comment on the technician’s positioning and technique.

Typical of the comments we heard was one facility’s letter to a State in which they
wrote, “A radiologist is trained to interpret images and to evaluate the quality of the
images based on the images themselves. The only current formal training available to
a radiologist that allows actual hands-on position training for mammography is Tabar’s
Level 3 course, and even those of us who have taken that course are not qualified to
critique our technologist’s positioning technique except by review of the images
themselves.” Other facility respondents stated that many women feel uncomfortable
having another person present while a technician performs a mammogram.

Other physician consultant duties that facilities often fail include:

   .    physician consultant signs off on the procedures manual, 39 percent;

   �	   physician consultant verifies that equipment and procedures meet all Federal,
        State, and local regulations, 32 percent, and;

   .	   physician consultant assures that safe operating procedures are used, 30
        percent.

It is possible that physicians are performing these duties in their facilities. However,
the documentation did not exist to verify it. Furthermore, although many facility
respondents expressed frustration with specific required physician consultant duties,
some of the technicians were pleased that the regulations required that the radiologist
be involved with quality assurance activities in the facility.


                                              8

Wiiitenkm     Sent to Patientand Rejkmkg Physician

Fifty-eight percent of facilities failed to meet the condition of interpretation of

screening mammography results. A facility could fail to meet this requirement

because: 1) the interpreting radiologist was not board certified or could not provide

the board certificate, 14 percen$ 2) the interpreting radiologist did not have enough

continuing education or did not properly document their continuing education, 27

percent; and, 3) the interpreting radiologist did not provide a written interpretation of

the mammography results to the referring physician and the patient, 46 percent. In

particular, 31 percent of inspected facilities were cited for not providing a written

statement to the patient.


Within a typical mammography practice, a radiologist provides a written interpretation

of the mammography’s results to the patient’s referring physician. Rarely does a

patient directly receive a written interpretation of the results. However, because a

patient may receive a screening mammogram through Medicare without a physician’s

referral, the Medicare regulations require that in addition to the usual written

interpretation for the referring physician, the radiologist must also provide a statement

to the patient explaining the findings of the mammogram in lay terms. This statement

may be sent directly to the patient or through the referring physician. Seventeen State

respondents said that at the time of the inspection, many facilities were unaware of

HCFA’S requirement that a written statement be given to the patient.


Some facility respondents were concerned that the written statement may interfere

with the patient’s relationship to her referring physician. These facility respondents

said many referring physicians prefer to discuss the findings with their patient without

the direct interpretation of the radiologist. Furthermore, many State respondents

believe enforcing this requirement is difficult because they do not review whether the

referring physicians are giving the radiologist’s written statement to the patient.


~@’     ~xe        (QA) Monitotig


Sixty-two percent of inspected facilities were cited for quality assurance requirements.

Most of the failures (42 percent) occurred because facilities were not routinely

monitoring such things as automatic exposure (212 facilities), darkroom integrity (137),

output reproducibility (133), and film storage adequacy (104).


Other failures in the quality assurance area include:


   �	   direct assignment of quality assurance activities to responsible personnel (such
        as a technician), 29 percent;

   �	   responsibility of overall quality assurance program to a qualified physicist
        (including an annual review), 26 percent, and;

   �    evaluation of monitoring results, 23 percent.


                                             9
Unfortunately, it is difficult to determine if the number of quality assurance failures in
HCFA’S OSCAR data reflect a substantive problem in this crucial area of
mammography. Few State inspectors told us that they saw actual problems with
quality assurance in the facilities they had inspected.

It is possible that many of these procedures are being performed, but are not properly
documented. fie Medicare regulations, andthus the OSCMdata,            does not make
that distinction. Nevertheless, documentation of such activities are often the only way
that inspectors have of determining the presence of quality assurance activities.
Furthermore, a lack of documentation of QA process measurements prevents trend
analysis which is essential to a QA program. The high number of deficiencies in this
area warrants additional study.

State inspectors said that facilities’ unfamiliarity with Medicare’s regulations is the
biggest problem encountered during inspections.

Thirty-four State respondents said inspected facilities were unfamiliar with the
Medicare regulations before the inspection. Nineteen State respondents specifically
said the reason for the unfamiliarity was that the radiologist or technician in charge of
the mammography unit did not see the regulations or interpretive guidelines before
the inspection. In many cases, these inspectors thought the attestation statement was
signed by financial or administrative personnel but the attached regulations were never
forwarded to the radiologist or technician in charge.

During two inspections we observed, the facility persomel were flustered and
apparently unaware of the Medicare regulations. At one of the facilities, the State
inspector gave the mammography technician a copy of the facility’s attestation
statement. The technician said it had been signed by someone in accounting. At the
other facility, the State inspector gave a copy of the regulations and interpretive
guidelines to the technician and radiologist who also claimed they had not seen them.
In this case, the facility had many deficiencies that led to a denial of their initial
application for Medicare certification.

Sixty-three percent of the facility respondents were aware that the State would inspect
them for compliance with Medicare regulations. However, 45 percent of facility
respondents (who were primarily mammography technicians and supervisors) said they
had not received information about the regulations.

In addition, seven State inspectors said facilities were often confused and thought
Medicare requirements were the same as ACR requirements. Many mammography
facilities are freestanding clinics or doctors’ offices that have never been regulated or
undergone any kind of inspection.

Two State respondents said that special educational efforts by their States, such as
seminars for the facilities, ensured that the facilities were prepared for the inspection.



                                             10

These educational efforts took place after the first few inspections in their States
showed that facilities were unprepared for a HCFA sumey.

The facilities’ initial unfamiliarity with Medicare requirements contributed to
unnecessary noncompliance by the facilities. This in turn required that the State
inspectors spend additional time and effort filling out paper work and conducting
follow-up visits.

The HCFA’S experience with the Medicare program provides wduable lessons for
FDA as they implement the Mammography Quality StidU*      Ad

l%e FDA!r pkl~ to hlpih@lt MQS2i by October 1, 1~.

  .    What are FDA’s current activities to implement MQSA?

The FDA was not given the authority to implement MQSA until June 1993. Since

then, FDA has formed the Division of Mammography Quality and Radiation Programs

within the Center for Devices and Radiological Health. In September, FDA

sponsored a public conference on MQSA. The many issues discussed at this

conference serve to illustrate the complexity of this legislation, and the need for

careful MQSA implementation.


The FDA published interim final regulations for the requirements for accrediting

bodies of mammography facilities and the quality standards and certification

requirements for mammography facilities on December 21, 1993. These regulations

took effect 60 days after their publication. The interim final regulations will be used

as the basis for certifying mammography facilities - and all mammography facilities in

the United States must be certified by October 1, 1994 in order to lawfully operate.

Furthermore, under MQS~ facilities must be accredited by a private non-profit

agency or a State agency which has been approved by the Secretary.


Because the FDA has based their interim regulations on the standards currently used

by ACR, facilities with ACR accreditation automatically quali~ for MQSA

certification. (There are few States which are in a position to accredit facilities in

their State.) Currently, 6,184 facilities have units that have been accredited by ACR

and 2,572 more are in ACR review. However, according to our conversations with

ACR, a thorough accreditation process takes about 6 months to complete. Therefore,

approximately 2,000 or more facilities in the country will need to apply for ACR

accreditation within the next few months and be accredited by October 1, 1994 in

order to be certified under MQSA. This is a substantial challenge for ACR. The

FDA must address how facilities that did not apply to the ACR (or perhaps their

State) for accreditation will be handled after October 1, 1994.


Another issue that FDA faces is that some facilities may not be able to afford ACR or

State accreditation fees and proposed inspection fees, in addition to the operating

costs (which includes medical physicist charges) of providing mammography sewices.



                                             11


                                                                                           —
In August 1993, FDA announced the formation of a national mammography advisoxy
committee. This committee will advise FDA on various issues, including the cost of
MQSA for facilities, the development of final MQSA quality standards and regulations
for facilities and an accrediting body, and the development of sanctions.

Development and diwmination of the reguhtions for MQSA

  �    What are the appropriate duties of the interpreting physician, the radiologic
       technician, and the medical physicist in ensuring quality mammography?

The OSCAR data we analyzed, as well as our interviews with State inspectors and

facility personnel, indicate that HCFA regulations do not completely reflect current

industry practice regarding the duties of the physician consultant. The data shows that

facilities are not meeting Medicare’s requirements for physician consultant duties.

Specifically, our respondents questioned the need for physicians to observe a

technician’s positioning and technique on a monthly basis.


Respondents also questioned the need for a contract between a physician and a facility

which outlines the required specific duties of the physician. They stated that in many

cases physicians do not work on-site at facilities, but have films sent to them.

However, a few mammography technicians we spoke with did express satisfaction with

Medicare’s strict requirements for the physician consultant. They were pleased that

the radiologist finally had to get involved with quality assurance.


Our interviews and on-site observations at several facilities indicated the radiologic

mammography technician has most day-to-day control over the production of clear

images in the facility. These are the people who work with the patients, develop the

film, and conduct the quality assurance monitoring. Facility respondents stressed the

importance of the technician’s qualifications and continuing education in the provision

of mammography.


Also, some State inspectors and facility personnel were concerned with the lack of

qualified medical physicists to review all mammography facilities. This concern was

further complicated by Medicare’s requirement that overall responsibility for an

equipment quality control program be assigned to a medical physicist. Some medical

physicists thought this made them liable for any problems, and therefore were

reluctant to perform these duties for Medicare-certified facilities.


Although MQSA emphasizes image quality, MQSA also requires standards for

personnel involved in the provision of mammography. The HCFA’S experience

regarding personnel qualifications and duties could provide useful lessons to FDA as

they refine these regulations.


  .	   How can FDA minimize the many and/or varied requirements        that facilities
       must meet, but still ensure quality mammography?



                                            12

For the facility respondents who offered an opinion about MQS~ most said that the
new regulations should complement State and ACR guidelines. Eighteen facility
respondents expressed current frustration with trying to meet the varied requirements
of different organizations and agencies. They wanted one requirement that would
meet everybody’s requirements and thus reduce the amount of needed documentation.
By modeling the interim final regulations on current ACR standards, the FDA has
addressed some of the facility respondents’ concerns. The FDA is also familiar with
various State standards. Because MQSA must set the national standard for
mammography facilities, there may be some cases where a State’s standards are
significantly different or more stringent than MQSA. In these cases, the State
inspectors (and perhaps the consulting physicist) will bear most of the responsibility
for instructing the facilities in their State on what the facilities must do to meet both
MQSA and State standards.

  �	   What methods will successfully disseminate appropriate     information about
       MQSA to involved groups and individuals?

The fact that some mammography facilities have experienced regulation and on-site
inspection under Medicare (and perhaps their State) helped break ground for MQSA.
Also, FDA has been working to alert facilities about MQSA. In December 1993,
FDA’s Commissioner Kessler spoke at the Radiological Society of North America’s
annual conference, and the FDA presented other materials there to many interested
people and groups in the radiology community. The FDA’s public conference in
September 1993 also helped to disseminate some initial information. In Februa~
1994, FDA sent a quarterly newsletter, entitled “Mammography Matters,” to all known
mammography facilities to alert them of their need to comply with MQSA. In
addition, State involvement in educating facilities will increase the effectiveness of
Federal education efforts.

However, thirty-eight percent of facility respondents we spoke with either have not
heard about MQSA or are unfamiliar with its intent. Some confused the Medicare
regulations and MQSA. In addition, approximately 35 percent of facilities providing
mammography services in the country have not applied for Medicare certification nor
undergone an inspection. It is unknown how many of these facilities will apply for
Medicare certification or undergo an inspection before MQSA is implemented.
Facilities with minimal State and no previous Federal or ACR monitoring will be
especially unfamiliar with the regulatory process and inspections under MQSA.

Although we realize that facilities are ultimately responsible for their compliance with
MQS~ to avoid similar problems encountered during the Medicare inspections, we
agree with the 21 State inspectors who said that facilities should be thoroughly trained
on MQSA’S regulations before the inspection process begins. Ensuring that the
mammography technicians are well-informed and instructed is especially crucial to
successful MQSA implementation, not only to the letter but to the intent of the law.




                                             13

Capacityto inspect all mammographyfacilitia on an annual bask

  �	    What issues must FDA address to inspect all mammography       facilities on an
        annual basis?

The regulations under MQSA will differ from those under HCFA’S program.
However, both programs require annual on-site inspection of 100 percent of facilities
in their programs. Even if FDA significantly lowers the on-site and overall inspection
time currently expended in the Medicare inspections, the additional 4,000 facilities
covered by MQSA poses a substantial challenge.

To meet the 100 percent on-site inspection requirement, the FDA must use staff in
the radiation control agencies in the States. However, these agencies va~ their
current capacities to fulfill that charge. Until their involvement in the Medicare
program, some of these agencies only conducted minimal safety inspections of
radiation equipment in their States once every three years. Even under the Medicare
program, most of the States radiation control staff still only conduct the machine
portion inspections. Other States conduct more comprehensive reviews of
mammography facilities. Furthermore, these agencies must contend with competing
priorities for inspections of radiological equipment in their States.

State radiation control personnel in 32 States said they will need additional staff to
enforce MQSA. Fourteen radiation control respondents said they would need two or
more additional staff to cover the MQSA inspections, while 12 said they would need
between one and two additional people. Six said they would need more, but did not
know how many. In addition, radiation control personnel in 33 States said they would
need additional equipment.

Medicare inspection experience and the apparent shortage of qualified staff and
resources should spark serious discussion over ways to prioritize and streamline the
inspections while still ensuring quality mammography. The FDA will need to work
closely with the individual State agencies in order to identifi their current capacity,
projected workload, and needed staff and equipment resources.

   .	   Will States be able to hire extra inspectors to cover the workload required by
        MQSA inspections?

Most of the respondents we spoke with in the States’ radiation control agencies said
they could hire and had room for extra staff as long as the funds were readily available
for salaries and other expenses. However, there may be a time lag in hiring new staff
if these States have to wait for funds generated from user fees.

However, radiation control personnel in 16 States said that there were possible
constraints to expanding the staff in their agencies. Of these States, half thought that
a current State hiring freeze would prevent them from expanding their ageney. The



                                             14

FDA may have to use their own inspectors in those States where additional staff
cannot be hired or in those States where the inspectors need extensive training.

  .    How will FDA train all the inspectors needed to conduct the inspections?

The MQSA legislation requires that only qualified inspectors conduct on-site
inspections of mammography facilities. The FDA is currently designing a two-week
training course for inspectors which includes field training. Furthermore, experienced
inspectors will be given the opportunity to “test out” of certain portions of the training.

Some of the State inspectors currently conducting Medicare inspections commented on
the training they received from HCFA and FDA. Most expressed the need for more
training in unfamiliar areas. In particular, radiation control personnel wanted more
practical training on conducting paper reviews. Also, our observation of inspections
and interviews with inspectors revealed that some inspectors had different ideas about
their role as inspector - some inspectors viewed themselves as educators in a facility,
whereas others were more concerned with strict compliance with the regulation. We
hope the FDA will consider these issues when designing their training curriculum.

Development of a munagemenl informationsystem

  .	   What data should be collected from MQSA inspections?         How could FDA use
       this data to better implement and manage MQSA?

The MQSA legislation requires that States prepare and submit an annual report on
the facilities inspected. We believe that such information, if continually collected and
analyzed, could be highly useful for providing feedback and assistance to State
inspection agencies and facilities as well as revealing the state of quality in
mammography facilities. The FDA is currently developing a management information
system to handle the mass of data which MQSA will generate, as well as help prepare
the required reports.

The HCFA’S OSCAR system is an example of such a database. The OSCAR system,
however, does not always differentiate between a substantive problem as opposed to a
documentation technicality. To illustrate, facilities were cited for having the operator’s
initials on the patient’s record, as opposed to the operator’s full name. The OSCAR
system does not capture the fact that the operator is identified on the patient’s record
but failed to record their full name. The FDA’s management information system
should capture such differences. The HCFAS experience with inspections and with
OSCAR could provide valuable information in helping to design FDA’s system.




                                             15

                   RECOMMENDATIONS


In light of our findings, we make recommendations both to HCFA and FDA regarding
implementation of the Mammography Quality Standards Act. We believe that FDA
has made significant progress towards the successful implementation of MQS&
including a public conference with the mammography community to discuss the
implementation of MQSA. The FDA published interim final regulations for the
quality standards and the accrediting bodies. In addition to these efforts, we believe
that in the interim period before implementation, both HCFA and FDA need to
coordinate their work to ease the transition for mammography facilities.

To ensure the smooth implementation of MQS~ H~A             ~d ~A      sho~~

  �	    reach agreement on the role of HCFA’S screening mammography certification
        program in the interim period before full implementation of MQSA.

              The HCFA inspections could be used to educate Medicare certified
              mammography facilities on the new requirements of MQSA. It would
              also allow inspectors to increase their familiarity with the MQSA
              requirements.

To effectivdy target current areas of concern wme irnplemen~g
                                                            MQS4               ~A

should.

  c	    ensure that facility personnel are aware of and thoroughly trained on MQSA’S
        requirements;

              While FDA has begun educating the mammography industry on
              MQSA’S requirements, further efforts might be made to en&re
              that personnel involved in the day to day operation of the
              mammography units are trained on the requirements. For
              example if funds were available, FDA could provide training
              funds to States to educate the provider community on the new
              regulations, or work with private entities like the ACR, medical
              societies, and professional organizations to educate their
              members.

   c	   examine ways to perform the most effective and cost-efficient inspections which
        still adequately enforce the regulations (given that the law requires an annual
        on-site inspection of all mammography facilities);

              Potentially, inspections could be prioritized or targeted to ensure that
              the facilities with little prior regulation, or a history of problems, are
              inspected first. Another possibility includes designing streamlined
              inspections for facilities with a proven compliance record. The FDA


                                            16

                                                                                           —-
             should use current inspector’s experiences in conducting HCFA’S on-site
             inspections to develop FDAs inspection protocols.

  �	   develop a management information system that allows for continuous
       monitoring of State inspections agency performance and facility compliance and
       distinguishes between documentation non-compliance and performance non-
       compliance.

             We understand that FDA has begun developing a management
             information system for MQSA. We believe the system developed must
             be able to distinguish between documentation non-compliance and
             performance non-compliance.

AGENCY COMMENTS

We received comments on our draft report from both HCFA and FDA. The HCFA
agrees with our recommendation that they reach an agreement with FDA on the role
of HCFA’S screening mammography program. Instructions on ensuring a smooth
transition from HCFA’S management of the screening mammography program to
FDA’s management of MQSA will be sent out shortly to HCFA regional offices,
Medicare State agencies and State radiation control agencies.

The FDA concurs fully or in principle with our recommendations.   As part of the
implementation of MQS~ FDA is already implementing or in the process of
implementing our recommendations.     They have held public meetings to discuss the
quality standards of MQS~ provided initial training to some State inspectors, have
reached an agreement with CRCPD for the States’ input into the inspection process
and have plans to develop a management information system. Each set of comments
are presented in fill in Appendix C.

We also have made a number of changes to the report based on the agencies’
comments. The FDA requested additional information on some areas of our report;
we have provided that information separately to FDA.




                                          17

             APPENDIX          A




LIST OF STA~  AND HOW THEY PERFON  INSPE~ONS   OF
         sCREENING MAMMOGRAPHY FA~




                     --ri---
STATE           COMBINED   RADIATION   SURVEY &
                AGENCY     CONTROL     CERTIFICATION
                           AGENCY      AGENCY
Arkansas            x	
Arizona             x	
Alabama             x	
Alaska              x	
California                     x	
Colorado                       x	
Connecticut         x	
District of	
Columbia                        x	
Delaware                                     x	
Florida             x	
Georgia                                       x	
Hawaii              x	
Iowa                            x	
Idaho               x	
Illinois            x	
Indiana             x	
Kansas                          x	
Kentucky	
Louisiana           x	
Massachusetts       x	
Maryland                        x	
Maine               x	
Michigan                        x	
Minnesota           x	
Missouri                        x	
Mississippi         x	



                               A-2	
STATE            COMBINED   RADIATION   SURVEY &
                 AGENCY     CONTROL     CERTIFICATION
                            AGENCY      AGENCY
Montana              x	
North	
Carolina                        x	
North Dakota         x	
Nebraska             x	
New                  x	
Hampshire	
New Jersey           x	
New Mexico           x	
Nevada               x	
New York                         x	
Ohio                 x	
Oklahoma
Oregon               x	
Pennsylvania         x	
Puerto Rico          x	
Rhode Island         x	
South Carolina       x	
South	
Dakota                                         x	
Tennessee                        x	
Texas                                          x	
Utah                 x	
Virginia             x	
Vermont              x	
Washington           x	
Wisconsin                        x	
West Virginia        x	
Wyoming                                        x	


                                A-3
                 APPENDIX         B




 NUMBER OF FACILKIES OUT OF COMPLIANCE WITH ONE OR MORE
CONIXTIONS OR STANDARDS UNDER THE KREENING MAMMOGRAPHY
                       REGULATIONS.




                          B-1


                                                ——    ——.
We obtained data from OSCAR on the results of all inspections entered through
August 31, 1993. A total of 1,615 inspected screening mammography facilities were
entered. Inspectors found deficiencies in 1,394 facilities. The following table breaks
out the number of mammography facilities failing one or more standards or conditions
after their initial inspection. Conditional level requirements are bolded.

The HCFA assigns identification numbers for data input (known as tag numbers) to
various conditions and standards. The HCFA can assign more than one tag number
to a standard or condition. For example, the standard for personnel orientation has
12 different tag numbers assigned for various portions of the standard. We chose to
combine the tag numbers under a standard or condition. The facilities out of
compliance represent a unique count of facilities failing one or more of these tags
under a standard or condition. Conditions are in bold text, while standards are in
normal text.



                                                         Facilities out       Percent out of
                      Regulation                         of compliance         compliance
 General - Must meet all the conditions in the       I                    I


                                                                          I


 Consultation with a qualified physician.                      123                 8%
 Qualifications for the Dhvsician consultant.                  195                 12%



 Interpretation of the results of screening
 mammography procedures.                                       99                  6%
 Board certification of interpreting physician.               232                  14%
                                                     I                    1




  Qualifications of operators of screening
  mammography equipment.                                       233                 14%




                                             B-2	
                                                                                                                                                                                                                                                                    Facilities out      ‘ Percent out of
                                                                                                  Regulation                                                                                                                                                        of compliance          compliance
 Personnel orientation for mammography	
 operators.                                                                                                                                                                                                                                                                621                            38%	
 Qualifications of individuals furnishing diagnostic	
 X-ray physics support.                                                                                                                                                                                                                                                    162                            10%	
 Maintenance of employee records.                                                                                                                                                                                                                                          119                       7%
                                                   .....................
                                                                       ............                                                   ...,.,.,,,
                                                                                                                                              ..,,..,,.,.,.,.,.,.,.,:.:.:..  .:,.,.,  .,,.,.,,,
                                                                                                                                                                                            ..,.,.,,,,::.:.,.,.:
                                                                                                                                                                                                            ...,,.:,::.:.:.:
                                                                                                                                                                                                              .,.:.
                                                                                                                                                                                                               ,..,,. .,,
                                                                                                                                                                                                                       ,,,,...,,.:.:,,.,..,
                                                                                                                                                                                                                                        .,........     .........
                                                                                                                                                                                                                                                             ...........                                   ,.,
                                                                                                                                                                                                                                                                                         ..:.:.:.:.,.::,:,:::.:,,,:,::,
                      ....................
         ....................
................
       ...,..,                     ...................
                                               .......              .......     ..................
                                                                                                 ....,,,,,,...
                                                                                                      .......,
                                                                                                          ......
                                                                                                      .....
                                                                                               ....:,:,:,;    ..,,,.,,.
                                                                                                                .....:,...
                                                                                                                       .,....
                                                                                                             .,...,.,.,.,
                                                                                                         ,:.:,,,,.
                                                                                                   ... ,,,,
                                                                                                                      ,,., .::,,,,,,,,
                                                                                                                            ,,..,,,
                                                                                                                                ...
                                                                                                                                ...,,,,,,,,
                                                                                                                                   .,.,,.,,,,,,,,
                                                                                                                                     .......         .,,..,,,.,
                                                                                                                                                          .,,,,
                                                                                                                                                            .,,....,,,,,
                                                                                                                                                                   ,.,,,
                                                                                                                                                                      .,,.,....,,,
                                                                                                                                                                              .,,..,.,,,,,.,,,,
                                                                                                                                                                                             ,,..,,.,.,.,,,,
                                                                                                                                                                                                  ..,,..,,...,:,,.,,                       ..,...,, ...,.,,..,.
                                                                                                                                                                                                                                                .....,,.,,
                                                                                                                                                                                                                                                      .....
  Obtaining and presening records.                                                                                                                                                                                                                                         108                              7%

  Records of screening mammography services

  performed by the supplier.                                                                                                                                                                                                                                               660                            41%





  Equipment specifically designed for
  mammography.                                                                                                                                                                                                                                                              2                              .1%
  FDA standards for x-ray system.                                                                                                                                                                                                                                          26                               2%
  Image receptor systems designed appropriately                                                                                                                                                                                           for
  mammography.
  DeveloDer temperature.
   kV-target-filter                                                            combinations.                                                                                                                                                                               38                               2%
   Focal spot size.                                                                                                                                                                                                                                                        23                                1%
   Devices to immobilize and compress the breast.                                                                                                                                                                                                                           43                               3%
   Standard:                                             Anti-scatter grids.                                                                                                                                                                                                15                               1%
   Automatic exposure control.                                                                                                                                                                                                                                              9                                1%
   Control panel indicators.                                                                                                                                                                                                                                                17                               1%
    Recalibration                                                        of mobile units after each
    relocation.                                                                                                                                                                                                                                                             24                                   1%
                                                                                                                                                                                                                                                                                 ......... ....=.
                                                                                                                                                                                                                                                                                               ......:.:.,.:,::.:.,,,
                                                                                                                                                                                                                                                                                               -.,.,.= ......,.:      ......,,,..; ,.,
                                                                                                                                                                                                                                                                                                                ...........
                                                                                                                                                                                                                                                                                                             ...,,..:,::::>::::     ..
                                                                                                                                                                                                                                                                                                                                   ,.,.

    Safety standards.                                                                                                                                                                                                                                                       11                               1%
    Safety precautions.                                                                                                                                                                                                                                                     58                               4%
    Exposure badges to measure radiation exposure.                                                                                                                                                                                                                          27                               2%
    Equipment                                                inspection.                                                                                                                                                                                                    75                               5%
    Protection against electrical hazards.                                                                                                                                                                                                                                  43                               3%


                                                                                                                                                                                                     B-3
                                                      Facilities out              percent out Of
                                                      of compliance                 compliance
                       Regulation                                ............,,,:, .......... .. .. ......,; ,.

                                                               387                           24%
-q         assurm=*
                                                                423                          26%
Responsibility for the quality assurance progam.
                                                                119                            770
Calibration of equipment.
                                                                684                           42V0
Performance      monitoring.
                                                                378                           23%
Evaluation of monitofig        results.
                                                                 218                           13%
    Retake analysis.
    Responsl%le personnel for monitofig   must be                476                           29%
    assigned.


*   More than one tag number was rolled up into these conditional level requirements.




                                              B-4	
APPENDIX      C




 AGENCY CO~




       c-1
     DEPARTMENTOF HEALTH 8LWW           SUWICES                mtllkmti


                                                                Memorandum
     .APR Io S94


     Assistant   Secretary for Health

     Office of Inspector General (OIG) Draft Report “Lessons From

     Inspections of Mammography Facilities,” 0EI-05-92-O0300


To   Inspector General, OS


     Attached are the PuMic Health Semite comments on the subject
     draft report. We concur fully or in principle with the
     report’s    reconnnendations    and our comments describe    the actions
     taken or planned      to implement   these  recommendations.     We also
     offer    a seri.ea  of tec~ical    comments for your consideration.

                            ffJj+&L
       �                     Philin
                             _—-———c-
                                         . Lee, M.D.

                                                .




     Attachment





                                          C-2
                                                                    —
-.




      ,    ?U BLIC HEALTH SERVICE (PHS) COMMENTS ON THE OFFICE OF
             INSPECTOR GENERAL (OIG) D-T   REPORT “LESSONS FROM
           INSPECTIONS OF MAMMOGRAPHY FACILITIES,” OEI-05-92-00300




     OIG’S recommendations present important “lessons” that the

     Food and Drug Administration (FDA) should be aware of as the

     Mammography Quality Standards Act (MQSA) of 1992 is

     implemented. The Health Care Financing Administration’s

     (HCFA) experience in the inspections of Medicare screening
     mammography facilities        is important.     However,    the emphasis      on
     providing   facilities     with sufficient    information       to understand
     what is required       of them prior    to the first    inspection     is a
     tall   order. The time frames required of FDA to properly
     certify all facilities prior to the October 1, 1994 deadline?
     and the resources available to accomplish the tasks, will
     require FDA to focus on the certification    process rather than
     any extensive facility education    program.
     At the same time, FDA recognizes that the intent of the MQSA

     is to bring facilities into compliance rather than forcing

     mammography facilities out of business. To that end, FDA will
     implement the law fairly. Facilities will be given the
     opportunity to comply fully with the MQSA; however~ if
     facilities refuse or are unable to comply, FDA will enforce
     the law and move to assure that these facilities do not
     operate unlawfully.

     The dilemma identified in this report (the education versus
     enforcement role of the inspector) is one that is always   an
     issue for regulatory programs. There is no Westion that
     inspectors must be responsible for the objective, unbiased
     evaluation of the facility. This enforcement role is the xnost
     important. However, it is also possible for these inspectors
     to pxovide    some assistance    to the facilities        to help them
     determine    how to come into    compliance.       When this     assistance
     is provided     it must be provided     in a lawful,      fair,   uniform
     reamer    and the inspector   must not provide       information        that
     could   be construed    as providing specific       details about how to
     comply with the regulations. The regulatory programs in the
     States have historically worked out for their own purposes how
     this issue should generally be handled. FDA will not
     encourage the inspectors to take on responsibilities that

     appropriately belong to the facility’s medical physicist.

     91G Recommendation

     1.	    The HCFA and FDA should        have a written       agreement       on the
            role   of HCFA’S screening       maracuography   certification
            program   in the interim      period    before   full     implementation
            of MQSA.

                                            c-3
                                                                             ..—
                                                                                                       2




ti concur in pa*.                 The FDA and HCFA are already                  working     to
provide      a muooth       transition            between
                                                 program and  the   Medicare
the 14QSAprogram. It is our intention to go as far as is
possible to make these changes through administrative actions.
However, it is not yet clear that all of the issues can be
resolved      within       the    Depar@nent.             A conforming      amendment     to     the
Medicare program may still be required to resolve this issue
completely. If the Department determines that Congressional
action is necessary to complete the task, all possible  lawful
steps will have been taken within the Department by the
October deadline.

In this light, FDA suggests,the following alternat~ve language
for OIG’s first recommendation:
       To ensure the smooth implementation of MQSA, HCFA
       and FDA should ~                  X agreement on the
       rele of HCFA’s screening mammography certification
       program in the interim period before full

       implementation of MQSA.


91G Rec~       e~dat~m
2:	       The FDA should ensure that facility persomel are aware
          of and thoroughly trained on MQSA’S requirements.
PHS Comment

We concur in principle. OIG recommends FDA provide training

funds to States to improve the knowledge of MQSA requirements

among the provider community. Although this approach could be

useful, the suggestion is unrealistic in light of existing

budget constraints. FDA does not have sufficient funds this

year to fully fund the first year of the MQSA inspection

program. Given this constraint, FDA’s highest  priority for
applying      the      limited        available         funds    is to   assure   that    the
inspection          program      is     funded     as     completely     as possible.

However, FDA has worked to alert facilities to the
requirements. FDA has sent the interim   final  rules to
individual facllit2e8, it has worked to alert the professions
by attending their professional meetings, holding public
meetings to invite interested parties, and finally, it has

established a quarterly newsletter, entitled ‘_ography

Matters.” The first edition of this newsletter was sent to
all known mammography facilities in February   1994. Its
purpose is to alert facilities not only to the need to comply
with the MQSA, but to answer some additional more involved
issues, explain the differences between the existing American

                                                    c-4
                                                                                                   —._—
.




                                                                                      3


    College of Radiology (ACR) and HCFA programs and the MQSA, and

    emphasize the need to be accredited by an approved accrediting

    body .

    In addition, on March 7, 1994 FDA provided a Level II training

    for 20 mammography inspectors who are senior staff from the

    States.

    ~                  endation

    3.
           The FDA should examine ways to perform the most effective
                  and cost-efficient inspections which still adqately
                  enforce the regulations (given that the law requires an
                  annual on-site inspection of all mammography facilities. )
    PHS Comment

    We concur. The recommendation to utilize the experience of
    the State inspectors in the development of the MQSA inspection
    prwram      has been implemented.      In February      1994, the
    Conference      of Radiation   Control   Program   Directors    and FDA
    agreed     to a process by which the States will have input in the
    inspection procedures as they are developed. However, the
    tting required to implement the program will limit the

    opportunity for an involved iterative process here~

    OIG Recommendation

    4:	           The FDA should develop a management information system
                  that allows for continuous mnitoring of State
                  inspections agency performance and facility compliance
                  and distinguishes between documentation non-compliance
                  and performance non-compliance.

    PHS Coxmne

             nt

    We concur. FDA will develop a management information syst=
    (MIS) that will allow    continuous       monitoring   of State
    inspections.and facility      compliance.        The MIS will focus on
    facility performance, including documentation necessary to
    assure adequate performance.

        Technical Comments

        The following comments are related       to   specific     sections     of   the
        report,      as   noted.

        1) -~
            Paei          a~h 5: MQSA’S effective   date should be
        revised to state that MQSA prohlblts  any mammography facility
        from operating   after  October 1, 1994 without          a ce~ificate
        issued  by FI)A.   The current word~nq suggests          that facility
                                           c-5

                                                                     —.——-
.




                                                                                                4



    certification        might      start     after October        1, 1994; should      this
    be the case,       all    mammography         facilities       would be unlawfully
    providing      mammography          se=ices       since   no facillty     would have
    the required       certificate.             Additionally,       MQSA dld not replace
    Had&care’s      current       regulations.            The question     is whether     the
    Department      has the authority             to modify      the approach     taken
    under      the Ommibus Budget           and Reconciliation          Act of 1990 (OBW
     ’90) to effect        the replacement,             or whether Congress will have
    to pass a conforming amendment to correct the situation. In
    the =anttie,    FDA and HCFA are working to assist facilities in
    the transition.     HCFA is working with their contractors in tho
    State health departments to inform facilities inspected under
    the Medicare program that inspection after September              1994 wi~l
    be against MQSA requirements.         As MQSA inspection procedures
    are developed,   State  inspectors     can use these    methods     rather
    than the Medicare su~ey       methods   and will  evaluate     facilities
    against MQSA’S interim final regulations where appropriate.
    2)   ?~           anh 4$ The report seems to confuse the
    numbers of facilities accredited by ACR with the number of
    x-ray units. This common point of confusion results from one
    of the differences between what ACR has historically done?
    i.e. accredit individual x-ray units, and what is required
    under the statute, that facilities rather    than individual     x-
    ray units be accredited. The number stated in this paragraph
    appears to represent the number of units    accredited    not the
    number of facilities. This will demonstrate a larger
    difference between those facilities accredited       by ACR and the
    total     number    in the U.S..       AS of February        1994,    ACR had
    accredited       7,742   units  in    6,029 facilities.

    3) Paae 2 Da~ZIDh
                   �
                               L   The wording         of this     paragraph    should
    be modified    to reflect   he   proper       ownership     of the NEXT
    program.     TMs La a program      that     is conducted       by the
    Conference    of Radiation   Control      Program     Directors.        FDA, under
    the terms of a cooperative agreement              covering several areas,
    receives the results of the States’             program     and has publish-
    analyses    of the NEXT program      results.        FDA would prefer the
    following language: “...although FDA has obtained information
    from the Conference of Radiation Control Program Directors
    (CRCPD ) concerning mammography use.    Individual States, usiW
    the NEXT protocol, have measured patient    radiation exposures
    and assessed phantom image quality . ...”
    4) ~: e2                  It is not clear that the reason for
    HCFA’S delay in publishing the final  regulations is totally
    related to the xerography issue.   We believe there were other
    substantive       issues     as well,     one of which was the enactment               of
    MQSA about       22 months     after    the interim   final mammography
    screening      rules     were published      by HCFA.

                                               C-6

.’O




                                                                                                              5



           5)   Paae      3,   2nd whole Darac7raDh: See technical comment
           number 1.
           6) Paae 4, paraaradl 1: Information from the 4 States that

           had not yet done any inspections muld be helpful to FDA in

           its negotiation of inspection contracts with these States.

           This information might point to issues that should be

           considered before negotiations begin so that if there are

      .	   problems that need to be resolved, FDA will have some
           opportunity to work to that end and assure adequate
           inspectional         programs     in   each    State.

           7) Paue 6. Pa au raph 2: AS in Technical Comment number 6,

           FDA would likerto have the information the OIG has obtained

           regarding the number of inspections performed by each State.

           8)  paae 7, naraaranh 4: Although the statement is true that
           under OBRA ’90, the Medicare program could reimburse
           facilities for providing diagnostic mammography semices, it

           would nevertheless be useful here to reiterate that under MQSA

           any facility that does not have an FDA certificate after

           October 1, 1994 can not lawfully provide mammography semices

           of any type regardless of whether federal reimbursement is
           involved.

           9)    Paae 9. section           on “Oualitv         Assurance       !40nitorin~”2          The
           fact    that   documentation         of quality         control       (QC) practices         was
           not available         for the State         inspector         should     be considered         a
           demonstration         that    QC practices          are not implemented.                The
           evaluation        of the processes,           i.e.,     making      objective
           measurements         of the pxocess,          and recording           those     measurements
           is central        to any QC program.              This is a rather             generic
           process      whether       4t is used in an industrial                  setting      or a
           nmclical     one.      The lack     of documentation             of the process
           measurements         would prevent        trend       analysis      which      is essential
           to process        control.       IUthout      this     essential        element,       the
           process controls are limited to correcting bad processes

           rather than preventing    them which is the fundamental goal of a
           quality  assurance   (QA) program. If measurements are being
           taken but not documented for trends analysis, this should not

           be considered a QA program.

            10)  Paae 11. last naxaaranh: The concern mentioned here
            regarding the cost of accreditation should be placed in
            perspective with the other aspects of the program. If
            facilities cannot afford to pay the accreditation fee, how can

            they afford to pay for the annual physics survey rqired   bY

            MQSA, and, if the inspections are to be self funding through

            fees as required by MQSA, these will be new costs to

            facilities that they have not previously incurred. These are

            among the issues that are assiqned by the statute to the

                                                          c-7

                                                                                                  6



National Mammography Quality Assurance Mvisory                              Committee.

11)     paae 12,
              naraa raph ~: The comment in the last  line of
this    paragraph
               regarding  the requirement for radiologists to
“finally get involved with quality assurance” is an
interesting contrast to the complaints by some facilities
regarding the need for the physician consultant on page 8~
paragraph 1.  It appears that the team did find some support
for    the    concepts     behind      physician    involvement        in     establishing
and monitoring the quality of mammography performed in the

facility. This comment should be strengthened to put the

complaints reported on page 8 into better context.

12) ~~          r        x  The comments in this paragraph
regarding the question of sufficient medical physics support
and the concern of some physicists for liability and the
speculation that this might cause some to refuse to work under

these conditions is an important issue for the Mvisory

Committee to evaluate. Any specific information the authors

of this report could provide to clarify these issues would be

important for the Mvisory Committee to have available to

them .

13) Paae 13, DaraUraDhS 3 & ~: We are concerned that the OIG

seems to place nearly all of the responsibility on FDA for

alerting facilities to the need to comply with MQSA. The

limited time provided to implement the program severely limits

the opportunities for facilities to fully understand what is

expected of them prior to the compliance deadline. The HCFA

experience suggests that many of the people involved in

mammography facilities do not take these requirements

seriously in the first place. Even the strongly worded letter
from HCFA warning against false attestations resulted in a
very high percentage of facilities making attestations of
compliance     without    understanding      the requirements.       Clearly,
this   is a difficult task         that will    finally  be resolved     only

during     the inspection     program.


The FDA has      worked to alert         facilities          to the requirements,

not only by sending          the interim         final      roles    to individual

facilities,      but has also        worked to alert             the professions        by

attending     their    professional        meetings,         holding    public    meetings

to invite     interested       parties,     and finally~            a Wafierly

newsletter      has been established            and the first          edition     sent     to

all     known mammography facilities               in February 1994. This first

newsletter      was written       to alert       facilities         not only to the	
 need to comply but to answer some additional more involved
 issues, explain the differences between the existing Advisoq
 Committee and HCFA progr~s and this new one~ and mphasize
 the   need     to   be   accredited      by an approved        accrediting          body.

                                             C-8
                                                                                             —	
.’




                                                                                              7



     The FDA is aware of activities       on the part of some States     to
     provide    information    on MQSA to mammography providers   (e.g.,
     Comecticut       recently  made such efforts with assistance    froxn
     the FDA Regional Radiological Health Representative). State

     efforts will clearly increase the effectiveness of federal

     educational efforts.

     14) Paffes14 & 15, re: inspector                   training:        FDA began    the
     training   program      for inspectors          in February        1994.   The
     training   program     will     provide      inspectors       with much more
     extensive    training      than    the llCFA program          did,   with three
     2-week training       sessions       interspersed         with mentored     inspection
     work and culminating with a practical qualification
     examination. Once potential inspectors have been qualified,
     they will be permitted to conduct the MQSA inspections. Then,
     their performance will be monitored through the statutorily
     required audit program.




       ,




                                                 c-9
    /-%                                                                                w     L-
                  DEPARTMENT OF HEALTH& HUMAN SERVICES

      4
*
�                                                                                      Fmncing    Admtmstration
;
;

“                                                                                      Memorandum
          Date

                  “~     ‘   “        ~#(

          From	   Bruce C. Vladecfl
                  Administrator

          ‘w      Office of Inspector General (OIG) DraftReport Lessons
                                                                      From Inspedions

                                                                                   of
                  Mammography Facilities

                                     (OEI-05-92-00300)

          To
                  JuneGibbsBrown

                         General

                  Inspector



                  We reviewed the subject draft report which describes inspections of mammography
                  facilities under the Medicare screening mammography program. The report also
                  discusses the implementation of the Mammography Quality Standards Act (MQSA).

                  We agree with OIGS recommendation that the Health Care Financing
                  Administration (HCFA) and the Food and Drug Administration (FDA) have a
                  written agreement on the role of HCFA’S screening mammography certification
                  program. HCFA and FDA have agreed on an approach to surveying screening
                  mammography facilities between now and the time MQSA becomes effective after
                  September 30. This approach will include continued onsite inspections of Medicare
                  approved screening mammography facilities through September 30, after which the
                  FDA will assume responsibility for all certification activity. Instructions to implement
                  the agreement between HCFA and FDA will be sent shortly to the HCFA Regional
                  Offices the Medicare State agencies, and the State radiation control agencies. These
                  instmctions will ensure a coordinated transition from HCFA’S management of the
                  screening mammography program to FDA’s management of the MQSA HCFA will
                  ako ksue a regulation to accept FDA’s quality standards for Medicare facilities that
                  provide mammography seMces.

                  Additional comments are attached for your consideration. Thank you for the
                  opportunity to review and comment on this draft repolt Please advise us if you
                  would like to discuss our comments at your earIiest convenience.

                  Attachment




                                                          C-10	
       ~1
            on theOffice    ector
                       oflnsn   General’s

                                        (OIG)DraftRmort:

             ‘%essons       ections

                    From InsD     ofMammography Facilities”

                           [OF1-05-92-00300]


GeneralComments


m
   The report states that it is unknown how the Mammography Quality Standard
     Act (MQSA) till affect the Medicare progr~ and ~sPections” We have
     determined that there is no conflict betsveen the Medicare screening
     mammography law and the interim regulations promulgated by the Food and
     Drug Administration (FDA) on December 21, 1993. A a resul~ we are
     amending the interim final Medicare screening mammography regulations to
     cross-reference the FDA standards by the effective date of those rules
     (October 1).

m
   The secondfinding
                     ofthereportincludes
                                       a statement

                                                  thatmammography
     facility        werenotserious.
           deficiencies                     forthis
                                    The basis            appears
                                                   finding      tobe
                          that“hxs than5 percent
     on page7,whereitstates                                   foundi
                                                ofalldeficiencies

                areforconditional
     thefacilities             level(considered      deficiencies.”
                                              serious)


     Minor deficiencies typically greatly outnumber serious deficiencies in any type
     of quality su~ey, and, thus serious deficiencies as a percentage of all
     deficiencies would typkdly be small. Therefore, we do not believe this k a
     valid analysis or finding and request that it be deleted from the report.

8    The last recommendation, addressed to FD& is to develop a system that
     distinguishes behveen “documentation noncompliance” and “performance
     noncompliance.” The report does not provide a further explanation of what
     either condition means, nor does it provide a rationale for this
     recommendation. We suggest that the final report further develop an
     explanation and justification for this recommendation.

     A significant difficulty with this recommendation is that “documentation
     noncompliance and “performance noncompliance” appear to be interhvined.
     For example, if corrective action documentation is missing (“documentation
     noncompliance”) for a problem that may have caused inaccurate test resul~
     the sumeyor would then check patient records for any unusual test results.
     This examination of patient records may result in the discovery of a
     “performance noncompliance” when in fact the investigation started as a
     ‘documentation noncompliance” issue.




                                      C-n
Page 2

Technical Comments

Page 2,third full paragraph -- The report states that “HCFA has not yet published
final regulations for screening mammography because of departmental concerns over
Medicare’s regulation concerning xerography equipment.” We suggest hat the
statement be revised to read as follows:

         “HCFA has not published final regulations for screening mammography under
         the Medicare program for a number of reasons including the enactment of
         the Mammography Quality Standards Act (MQSA) of 19Z which the Food
         and Drug Administration is responsible for implementing by October 1, 1994,
         and which HCFA believes will supersede the Medicare standards at that time.”

Page 7,last sentence
                   --The report
                              states

                                  that“HCFA basedthescreening
mammographyregulations on theportable   regulations
                                    x-ray                  thata
                                                 thatrequire

physician         oversee
         supervisor             process.”
                         thex-ray                thattheStiternent

                                        We suggest               be

revised

       toreadasfollows:


         “HCFA modeled its Medicare screening mammography regdation$        k pan
         after the American College of Radiology Accreditation guidelines and the
         Medicare portable x-ray regulation% both of which require that a physician
         supervisor oversee the x-ray process.”




                                         C-12	
